                              CLOSEOUT O F M90110042
    This case was brought to the attention of OIG on October 3, 1990 by the complainant,
                                                       employed by het-
                                                              of misconduct in science
                                                                member at the   0
                                                      The complainant was once a postdoctoral
researcher in the subject's laboratory. During that time they had co-authored a paper based
on her research that had been rejected for publication. The allegations were:

1.     failure to provide proper attribution to her work in the abstract of an oral
       presentation,
2.     failure to submit a revised manuscript for publication, thereby suppressing the
       complainant's data,
3.     improperly citing that manuscript as "submitted" in an NSF progress report when it
       had never been submitted for publication,
4.     misrepresenting data,
5.     submitting an NSF proposal based both on faulty and unpublished data,
6.     unwillingness to share samples, and
7.     falsifying data.

     In the evaluation of the allegations 1-6 OIG reviewed the materials submitted by the
complainant, the subject (in response to our request for information on allegations 1-3), and
the relevant NSF progress reports and proposals. The proposal text related to allegation 4
was also reviewed by an expert in the field. Allegation 7 was deferred to the subject's
institution for an inquiry.

    According to both the subject and complainant, they had disagreed about the publishable
quality and robustness of data collected by the complainant when she was a postdoctoral
researcher in the subject's laboratory. In the subject's response to OIG's request for
information on these allegations he stated that his concern stemmed in part from the
incomplete nature of the complainant's laboratory notebooks. He said that he had decided to
verify her results by independently repeating the experiments. Based on results from this
second set of experiments, he had decided not to resubmit their manuscript for publication.
OIG determined that the subject's oral presentations of these new results, the failure to
provide the complainant authorship credit on the handouts that accompanied each presentation
of the new results, and his reluctance to submit a revised manuscript for publication were the
primary sources of these allegations.

ALLEGATION ONE             In his response to OIG's request for information on this allegation,
the subject indicated that the data he had orally presented at regional scientific meetings were
developed in the second set of experiments. After reviewing copies of the abstracts for each
of these presentations (which were provided by the subject) OIG determined that the research
described in these presentations was initiated after the complainant had left the subject's
laboratory, and that the complainant's work, which was done prior to the described research,
had been properly. referenced.

     Initiating n6w research themes in a PI'S laboratory is part of the postdoctoral experience;
it generally doei not, however, provide authorship rights for that postdoctoral researcher on
all the related research conducted and published by that lab after his or her departure.
Instead of providing authorship, it is standard practice to cite the original work, as was done
here. OIG determined that this allegation did not have substance.

ALLEGATION TWO In the subject's response to OIG's request for information on this
allegation, he indicated that serious disagreements had arisen between the subject and the
complainant during the manuscript revision process. OIG determined that three issues were
relevant to this allegation: the subject's and complainant's scientific dispute over the
interpretation of her original data, the absence of complete laboratory records to document
complainanf's original experiments, and the lack of new data necessary to revise and
resubmit the rejected manuscript. Both the complainant and the subject stated that the
complainant relied on other laboratory personnel to record mainly her successful experiments
and the associated data; the subject stated that some of the laboratory records that were
needed to respond to the manuscript reviewers' comments were missing from these
notebooks. Information supplied by the complainant supported this statement. The subject
indicated that he had had the entire set of experiments repeated de rwvo, beginning with the
collection of fresh specimens, because of his concern over their different interpretations, the
missing documentation, and the complainant's failure to produce the new data required for
resubmission. The results of these new experiments were in conflict with the complainant's.

    In our view, it is doubtful that such a costly, time-consuming endeavor would be
undertaken if the subject only wanted to suppress the complainant's data. Disputes over the
completeness of data and the quality of a manuscript are sometimes emotional but are well
within the realm of the normal scientific process. OIG determined that this was a legitimate
scientific debate and not a misconduct issue; no substance was found for the allegation.

ALLEGATION THREE              In the subject's response to OIG's request for information on this
allegation, the subject pointed out that he had corrected the citation error in his final progress
report and had also instituted a policy whereby future progress reports will only cite papers
that are "in press" and those that have been published; manuscripts that have been
"submitted" but not yet accepted for publication will not be cited.

     OIG determined that the subject had taken the appropriate remedial action with regard to
this allegation.

ALLEGATION FOUR              In this allegation the complainant stated that the subject had
knowingly represented data as being derived from one experimental system when they were
actually the result of a contaminant from a completely different system. After reviewing the
materials relevant to this allegation, a scientific expert on the NSF staff determined that the
subject did not misrepresent the data; the subject had clearly pointed out the strong similarity
between the data derived from the two systems. Further, he had not excluded the possibility
that one system was contaminated by the other. OIG determined that this allegation was
without substance.

ALLEGATION FIVE In this allegation the complainant stated that the subject's NSF
proposal did not merit funding because questions had been raised about the quality of his data
(allegation 4), and he had not published any of the research results (returning to allegation
2). OIG determined that allegations 2 and 4 were without substance. As explained in
Alle~ationOne, the subject had distributed abstracts of his research at regional meetings.
OIG found that at least six abstracts and one paper had been prepared: two of these abstracts
and the paper were published in scientific journals; the four remaining abstracts were
handouts provided at the annual regional scientific meetings.

    Determining the merit of an individual's research proposal is part of the proposal
evaluation process at NSF, which is completely separate from OIG's function. OIG had
previously determined that the issues (allegations 2 and 4) relating to this allegation did not
have substance, and further decided that the evaluation of the merit of a proposal was not
within the scope of OIG's authority.

ALLEGATION SIX          With regard to this allegation, OIG found that the complainant had
not made a specific request for the samples, instead she had stated that the research products
she had developed in the subject's laboratory were her property.

    The products of research grants are generally the property of the grantee institution.
Principal investigators of NSF grants are expected to respond promptly to any request for
samples; they are not expected to transfer ownership from the grantee institution to another
researcher. OIG determined that this allegation was without substance.

ALLEGATION SEVEN In this allegation the complainant alleged that the subject had
orally reported fabricated data in a response to a question following a presentation at a
regional scientific meeting. During the initial inquiry into this allegation OIG determined
that the text from one of the subject's abstracts appeared to support the complainant's
allegation. OIG determined that a full evaluation of this allegation required a review of the
laboratory notebooks. At the request of an administrator from the subject's institution, OIG
deferred the initial inquiry into this allegation, and any possible investigation, to the
institution.

    In response to this deferral, the institution's committee assigned to address misconduct
allegations interviewed four of the five authors of the abstract (the f a h was determined not
to be essential to their evaluation), and reviewed two relevant laboratory notebooks. The
committee concluded that the text of the abstract in question was not clearly written and was
subject to misinterpretation. Their interpretation of that text was based on their interviews,
their examination of the laboratory notebooks, and the subject's publications. The
    committee's interpretation of the text did not support the complainant's allegation; they
    concluded that there was no substance to the allegation and that no misconduct had occurred.

        After reviewing the information supplied by the institution, OIG concluded the committee
    had adequately addressed this allegation and that their finding of no misconduct could be
    adopted in lieu of an OIG inquiry.


    CONCLUSION          This case is closed with a finding of no misconduct.




-
    Staff Scientist, Oversight

    Concurrence:



                                                                                        tlrtlt*
    Donald E. Buzzelli
    Senior Scientist, Office of Oversight           Assistant Inspector General for Oversight




    ~ e ~coinsel
           u i ~to the Inspector General

    cc:    Assistant Inspector General for Oversight
           Inspector Gened
